OBSG ii’NinKl
f/led

20"15 9l

MAY 07 2m

No. 21-

IN THE

Supreme Court of the United States
ASHWIN K KHOBRAGADE
Petitioners,
v.
COVIDIEN LP,
Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals for
the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

MR. ASHWIN K KHOBRAGADE,
4764 Quadres ct, Fremont, CA 94538
YouBeLoyal2AshwinK@gmail.com
Phone (646) 877 3878

RB
MAY 1 1 2021

QUESTIONS
1. Is the Defendant Covidien LP entitled to the
absolute qualified immunity? Which is luring,
hiding, lying, cheating, stealing, RICO and
committing fraud to and from the Govt, of
United States and the Plaintiff (white collar)
simultaneously, while making plaintiff work
in Mexico illegally, while reporting plaintiff,
on paper, to be a US Worker working in USA;
and as a result, simultaneously suppressing
the U.S. White Collar Citizen’s hiring at 100%
of the prevalent salary. Did the District Court
Err? Did the Ninth Circuit Courts Err?

2. Is it okay for the defendant employer Covidien
LP to repeatedly relentlessly obsessively
compulsively break the one and only law

(available to a prior white collar employee),
that resulted in numerous irreparable losses of
significant proportion (i.e. a Total of 140+
torturous

encounters

deliberately

causing

on
and

the

plaintiff)

resulting

in

overwhelmingly catastrophic & financially
disastrous

position

(defendant

stealing

everything, leaving only one suitcase) for the
Plaintiff, Is the defendant entitled to absolute
qualified immunity or should the District
Courts have deter the Defendant by sanctions,
and did the Southern California District Court
Err? Did the Ninth Circuit Court of Appeals
Err?

3. Most Importantly, The Supreme Court of the
United

States,

stare decisis ruling was

disrespectingly disregarded and in addition a

n

total of 5 different Court of Appeals (preciously
2nd Circuit, 5th Circuit, 6th Circuit, 9th
Circuit and 11 Circuit) stare decisis ruling in
11+ different cases were in addition also
disregarded, and further more Federal Rule of
Civil Procedure, Rule 56, 2010 amendment
subdivision
disrespectingly

further

was

(e)

disregarded

i.e.

more
In

Hierarchical and precedential Order, that
substantially

affects

a

rule

of national

application in which there is an overriding
need for national uniformity, did the Southern
California District Court Err? Did the Ninth
Circuit Court of Appeals, Err?

m

PARTIES TO THE PROCEEDINGS BELOW
The Pro Se Plaintiff, Appellant and Petitioner is
Mr. Ashwin K Khobragade. The Defendant, Appellee
and Respondent is Covidien LP, now sold to
Medtronic LP (an American company, in Ireland (a
corporate tax haven), gross profiting $5 Billion US
Dollars every 3 months and $20 Billion US Dollars
annually, from a revenue of $30 Billion US Dollars
annually, approximately, year over year over year,
since a very very long time, of 60+ years).

IV

RELATED PROCEEDINGS
1. Court in question; United State District Court,
Southern District of California, San Diego, CA,
Case Number; 3:l6*cv*00468*WQH*AGS
Docket Number^ 140
Case Caption for the proceeding: Khobragade v.
Covidien Lp, Order on Motion for Summary
Judgment.
Date of entry of the judgment: February 19, 2019
2. Court in question: United State District Court,
Southern District of California, San Diego, CA,
Case Number: 3:16*cv*00468*WQH*AGS
Docket Number: 145, 152, 155
Case Caption for the proceeding: Khobragade v.
Covidien Lp, Order on Motion for Reconsideration
Date of entry of the judgment: April 2, 2019.
3. Court in question: United States Court of Appeals
for the Ninth Circuit, San Francisco, CA
Case Number: 19-55498
Docket Number: 41
Case Caption for the proceeding: Ashwin
Khobragade v. Covidien LP, Memorandum Order
on Opening Brief and Reply Brief.
Date of entry of the judgment: September 8, 2020.
4. Court in question: United State Court of Appeals
for the Ninth Circuit, San Francisco, CA.
Case Number: 19*55498
Docket Number: 44
Case Caption for the proceeding: Ashwin
Khobragade v. Covidien LP, Order on Petition for
en Banc Rehearing
Date of entry of the judgment: December 8, 2020

v

TABLE OF AUTHORITIES

United States Supreme Court Case Laws
1. Alexander v. Garner-Denver Company, 415
U.S. 36, 94 S.Ct. 1011, 39 L.Ed.2d 147
24
(1974)..........................................
26
2. Celotex, All U.S. at 323............
27
3. Henry, 983 F.2d at 949-50.4 *3
31
4. Eldridge, 832 F.2d at 1136-38..
5. AIDS Healthcare Foundation, Inc. v. Gilead
Sciences, Inc. and Japan Tobacco Inc., 2018
69
WL 3819236(U.S), 19
6. Md Cas. Co v. Pac. Coal & Oil CO., 312 U.S.
71
270, 273 (1941)
7. Chambers v. NASCO, Inc., 501 U.S. 32, 46
71
(1991)
8. Alyeska [Pipeline Serv. Co. v. Wilderness
Soc'y, 421 U.S. 240,] 258-259, 95 S.Ct. 1612,
74
44 L.Ed.2d 141 [(1975)]
9. F.D. Rich Co. v. United *545 States ex rel.
Industrial Lumber Co., 417 U.S. 116, 129, 94
74
S.Ct. 2157, 40 L.Ed.2d 703 (1974))
10.Hall v. Cole, 412 U.S. 1, 5, 93 S.Ct. 1943, 36
74
L.Ed.2d 702 (1973)
11 .Newman v. Piggie Park Enterprises, Inc., 390
U.S. 400, 402, n. 4, 88 S.Ct. 964, 19 L.Ed.2d
74
1263 (1968)

vi

12. Universal Oil [Products Co. v. Root Refining
Co., 328 U.S. 575,] 580, 66 S.Ct. 1176, 90 L.Ed.
74
1447 [(1946)]
IS.Hutto [v. Finney, 437 U.S. 678,] 689, n. 14, 98
75
S.Ct. 2565, 57 L.Ed.2d 522 [(1978)]
75
14. Chambers.............................................
15. Roadway Express, Inc. v. Piper, 447 U.S. 752,
767, 100 S.Ct. 2455, 65 L.Ed.2d 488 (1980)..76
76
16. Chambers, Id. at 50, lllS.Ct. 2123
17. Chambers, 501U.S. at49, lllS.Ct. 2123.......77
18. Chambers, 501 U.S. at 36, 40, 111 S.Ct.
77
2123..........
501U.S.
at49—50,
lllS.Ct.
19. Chambers,
104
2123..........
20.In Bagwell, Id. at 824-25, 114 S.Ct. 2552....77
21. Estate ofAdams v. Fallini, No. CV24539 (Nev.
90
5th Dist. Ct. Jan. 31,2007)
22.Eppes v. Snowden, 656 F. Supp. 1267, 1279
91
(E.D. Ky. 1986)
23. C.B.H. Resources, Inc. v. Mars Forging Co., 98
91
F.R.D. 564, 569 (W.D. Pa. 1983)
24. Boumediene v. Bush, 128 S. Ct. 2229
101
(2008).....................................
2b.Hamdan v. Rumsfeld, 548 U.S. 557
102
(2006)....................................
26. Ham di
v.
Rumsfeld,
542
U.S.
507
(2004)................................................................ 102
21.Rochin v. 16 California, 342 U.S. 165
81
(1952)

VXl

28. The Court in Bivens v. Six Unknown Named
Agents of Federal Bureau of Narcotics, 403
82
U.S. 388 (1971)..........................................
84
29. Id. at 404-05..............................................
84
30.Davis v. Passman, 442 U.S. 228 (1979)
84
31. Carlson v. Green, 446 U.S. 14................
32. Cooter & Gell v. Hartmarx Corp., 496 U.S. 384
85
(1990)
33.Adickes v. S.H.Kress & Co., 398 US. 144, 157,
34
90 S.Ct 1598(1970)
34. White motor Co. v. U.S., 372 U.S. 253,
34
259(1963)
35.Medlmmune, Inc. v. Genentech, Inc., 549 U.S.
118, 127 S.Ct. 764, 166 L. Ed. 2d 604
35
(2007)..............................................................
95
36. Maples v. Thomas, 132 S. Ct. 912 (2012)

United States Court of Appeals, Circuit Court
Case Law
31. Jones v. Supreme Sugar Refinery, Div. of J.
Aron & Co., 493 F.2d 1354, (Mem)-1355 (5th
24
Cir. 1974)
38. Godfrey v. New York City Transit Auth., 258
25
F. App'x 353 (2d Cir. 2007)
39. Godfrey v. New York City Transit Auth., 258
26
F. App'x 353 (2d Cir. 2007)
40. Jacobs v. Angelone, 995 F.2d 231 (9th Cir.
27
1993)

vm

41. United States v. One Piece of Real Prop.
Located at 5800 SW 74th Ave., Miami, Fla.,
28
363 F.3d 1099 (llth Cir. 2004)
42. Trustees of Cent. Pension Fund of Inti Union
of Operating Engineers & Participating
Employers v. Wolf Crane Serv., Inc., 374 F.3d
28
1035 (llth Cir. 2004)
43.Stough v. Mayville Cmty. Sch., 138 F.3d 612
29
(6th Cir. 1998)
44.Heinemann v. Satterberg, 731 F.3d 914 (9th
30
Cir. 2013)
45. Garcia v. Knapp, 936 F.2d 577 (9th Cir.
31
1991)
46. -Smith v. Haan, 199 F. App'x 594 (9th Cir.
32
2006)
47.Landon v. Hunt, 938 F.2d 450, 454 (3d
77
Cir. 1991)
48. Martinez-Aguerro v. Gonzalez, 459 F.3d 618
84
(5th Cir. 2006)
49. Cale v. Johnson, 861 F.2d 943 (6th Cir.
84
1988)
50.Bagola v. Kindt, 131 F.3d 632 (7th Cir.
84
1997)
51 .Magluta v. Samples, 375 F.3d 1269 (llth Cir.
85
2004)

IX

United States District Court Case Law

52. Breezevale Ltd. v. Dickinson, 759 A.2d 627,
71
641 (D.C. 2000)
53. Sun World, Inc. v. Olivarria, 144 F.R.D. 384
72
(E.D. Cal. 1992)
54.Alexsam, Inc. v. Wildcard Systems, Inc., 2018
71
WL 4069093
hb.Mancia v. Mayflower Textile Servs. Co., 253
100
F.R.D. 354, 362 (D. Md. 2008)

Authorities : Constitution, Supreme Court
Rules And Federal Rules.

56. United States Constitution, Article 4, Clause
12
2
57.United States Constitution, Bill of Rights 4th
13, 22
Amendments
58.United States Constitution, Bill of Rights 5th
13, 23
Amendments
59.United States Constitution, Bill of Rights 7th
14, 23
Amendments.
60. United States Constitution, Bill of Rights 8th
14, 23
Amendments
61. United States Constitution, Bill of Rights 14th
14, 23
Amendments

x

62. Supreme Court of the United States, Rule 10
17
(c)
63. Supreme Court of the United States, Rule 10
19
(a)
64.Federal Rule of Civil Procedure, Rule 45... 72
65. Federal Rules of Civil Procedure, Rule 60(d)
78, 90, 93, 94
(3)
66. Federal Rule of Civil Procedure, Rule 56, 2010
Subdivision
Amendment
18, 20, 24, 32, 33
(e)
..........85, 95, 97
67. Fed. R. Civ. P, Rule 26(g)
85
68.Fed. R. Civ. P, Rule 37....
69. Federal Rule of Civil Procedure, Rule
77, 86
11
70. FRCP Rule 11 Notes of Advisory Committee
on Rules-1993 Amendment subdivision (b) and
85
(c)
71. FRCP Rule 11 Notes of Advisory Committee
on Rules-1993 Amendment subdivision
85
(d)

xi

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDINGS BELOW

IV

RELATED PROCEEDINGS

v

TABLE OF AUTHORITIES

vi

TABLE OF CONTENT

xn

INTRODUCTION

1

OPINIONS AND ORDERS BELOW

8

JURISDICTION

12

CONSTITUTIONAL

AND

STATUTORY

PROVISIONS INVOLVED

12

STATEMENT OF THE CASE

15

REASONS FOR GRANTING THE PETITION

17

xu

CONCLUSION

40

APPENDIX A

42
Order of the Lower Ninth Circuit
Court of Appeals on the Appeals.

60

APPENDIX B

Order of the Lower Ninth Circuit
Court of Appeals on Petition for
Rehearing En Banc.

63

APPENDIX C

Facts in accordance with Laws for
Imposing

Sanction

on

Defendant

Covidien LP, now Medtronic LP.
APPENDIX D

xin

108

Order of the Lower District Court,
Couldn’t be attached, because the
Pacer.gov did not allow access to the
Order.

xiv

INTRODUCTION
Introduction of the Pro se, Appellant, Petitioner,
Plaintiff, Mr. Ashwin K Khobragade,
1. Awarded in the year 2002 Merit Scholarship, and
a Master in Bioengineering, an advanced degree
holder from then Top 50th Ranked University of
the

United

States

of

America,

Syracuse

University, Syracuse, NY, 13210, in the year
2005. Syracuse University, the Alma Mater of our
Current 46th President of the United States of
America, Honorable Mr. President Joe Biden.
The alumni and affiliates includes founder of The
New York Times, 3 Nobel Prize Winner, 1 Field
Medalist,

33

Pulitzer

Prize

Olympic

Medalists,

recipients,

numerous

Academy

Award

winners, Rhodes Scholars, Marshall Scholars,
Various Governors, Members of the U.S. Senate

Page 1 of 40

and House of Representatives. Plaintiff Mr.
Ashwin K Khobragade also earned a Bachelor’s in
Mechanical Engineering, in the year 2002. Who
once even got Accepted, Invited and Interviewed
at the Top 15th ranked United States University,
Ross School of Business, University of Michigan,
Ann arbor, Michigan for a Master in Business
Administration Program in year 2008, who even
got

selected

Accepted

and

Invited

and

Interviewed by the Top #1 University of the
World, for a Master in Business Administration
Program, at University of Oxford’s, Said Business
School, Oxford, UK in year 2015. Mr. Ashwin K
Khobragade, is a highly Advanced Degree skilled
and trained professional with exceptional ability,
with great experienced who has worked gainfully
in USA, for approximately 8 years and 3 months,
in a Fortune 2000 Company, in a Fortune 1000

Page 2 of 40

company, in a Fortune 500 company, Global
Fortune 200 Company, and in once coined the
longest startup company.
2. Is and since termination, the plaintiff has not
only tried to mitigate the pain of the situation, by
taking the GMAT examination numerous times
but also has taken the .LSAT examination many
times, for admission into Top Business school and
or Law school respectively. And similarly since
termination, applied for jobs not only in his areas
of degrees of education and experience, but also in
different industries, like consulting, software,
mechanical,

finance,

medical

not

only

in

California, but in the entire United States, not
only in United States but also in Europe, North
America and Asia, where applicable.
Simultaneously since termination, the plaintiff
has started his business, with growing his

Page 3 of 40

businesses up into 15 different areas of specialty,
field, sector and or industry, with more than a
dozen of product patent pending position till date.
And since the prior attorney’s withdrawal due to
plaintiffs lack of capability of paying attorneys
steady legal fee, the plaintiff had, been selffocusing on the legal proceedings of the Federal
Court, Ninth Circuit Court and the Supreme
Court of the United States, facing a tough and
dangerous non-stop fight from the defendants,
their past and or present guilty employees, the
guilty employee’s guilty friends/family/relative,
their guilty law firm/s and their far reaching
guilty

authorities.

Knowing

the

firsthand

experience gained, the plaintiff was offered $5
Million for his first book writing.
3. It is, Not only that the defendant Covidien LP
now Medtronic LP obstructed, thwarted and

Page 4 of 40

damaged

the

plaintiffs

GMAT

and

LSAT

examination multiple times, while preparing, and
during taking the exams in Southern California
District and multiple places in North East Coast
Towns/cities, but also the defendant Covidien LP
now Medtronic LP blocked, obstructed and
thwarted the funding for the plaintiffs business of
many business ideas, twice in New York City on
Dec 2017 at corner of 41st street & 5th Ave and
on Jan/Feb/Mar 2017 in person offered $25
Million, in a Library in the neighborhoods of
Columbia University, New York, NY. Not only
that, but the defendant Covidien LP

now

Medtronic LP also screwed up my business school
admission personal interview to the #1 ranked
University in the world, University of Oxford,
Oxford, UK.

Page 5 of 40

For this case, the plaintiff has even had a
chance and fortune for 1.5 year in 2016 & 2017,
visiting multiple times, with help from New York
Public

Library’s

Stephen

A.

Schwarzmans

Building, to Study Law specifically to prepare for
this

Court

Case,

at

the

New

York

University(NYU), School of Law, in the Law
Library ranked Top 5 Law schools in the World
with including many past and present faculty and
alumni of 38 Nobel Laureates, 8 Turing Award
winners, 5 Field Medalists, 31 MacArthur Fellow
26 Pulitzer Prize winner, 3 Heads of State, a U.S.
Supreme Court Justice, 5 U.S. Governor, 4
mayors of New York City, 12 U.S. Senators, 58
members of the House of Representatives, two
Federal Reserve Chairman, 37 Academy Award
Winner, 30 Emmy award winner, 25 Tony award
winner,

12

Grammy

Award

Page 6 of 40

winner,

17

billionaires and seven Olympic medalists, Six
Rhodes Scholars, three Marshall Scholars, 29
Schwarzman Scholar and one Mitchell Scholar.
4. Introduction of Plaintiff is to bring to the
Supreme Courts of the United States’ notice, the
plaintiffs recent past and current state, for
pleadings.
When

the

lower

court

decided

cases

differently, it can lead to confusion. As the “Court of
Last resort”, the Supreme Court of United States can
and does make decisions that all the courts must
follow, establishing a precedent; a legal example
which will be followed in all similar cases in the
future. This guarantees that the laws are applied
equally to all people, no matter where they live. And
sincerely, in this case, so far, it has not been that
case, since the District and Circuit Court caused

Page 7 of 40

confusion, as shown vividly, as none of my motion
ever got granted, except for time extension, in the
entire

history

of legal proceedings

contrarily, when

the

till

date,

abundances of proof of

evidences, was shown to both the Courts. Hence the
Petition for a Writ of Certiorari is appealed to the
United States Supreme Court, as the absolute
necessary last resort, for remedy, for the defendants
increasing intensity of horrific tortures and Claims,
since the last 11 years, even after termination, so
that the remedy and justice be granted to the
plaintiff.
OPINIONS AND ORDERS
“TASHIMA,

SILVERMAN,

and

OWENS,

Circuit Judges. “We do not consider arguments and
allegations raised for the first time on appeal. See
Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir.

Page 8 of 40

2009).

The three lower court Judges attaching to

the Memorandum Order, see APPENDIX A, below!
“B. Purpose (Rehearing En Banc) • A
party should seek en banc rehearing
only if one or more of the following
grounds exist: ^ Consideration by the
full Court is necessary to secure or
maintain uniformity of the Court’s
decisions! . . . . ► The opinion directly
conflicts with an existing opinion by
another court of appeals or the
Supreme Court and substantially
affects a rule of national application in
which there is an overriding need for
national uniformity.”
However, the Petition for Rehearing en Banc was not
even reviewed, please see in attached CM/ECF 44 in
Appendix B.
“TASHIMA,

SILVERMAN,

and

OWENS,

Circuit Judges. “We reject as unsupported by the
record Khobragade’s contention that the district
court did not address his last motion for an extension
of time to file a summary judgment opposition.

Page 9 of 40

The facts can’t be rejected only because the 3 judges
chooses to, because, there is still no record and or
order, yet to date, that the last motion for extension
of time to file a summary judgment was approved or
denied. Because the plaintiff never got an email and
or letter mail stating approval or denial nor there is
a Docket Entry as such, for the last motion for
extension of time to file a summary judgment
opposition, denied or granted.
“TASHIMA,

SILVERMAN,

and

OWENS,

Circuit Judges. “The district court did not abuse its
discretion in denying Khobragade’s motions to
reopen discovery, for sanctions, for reconstruction of
electronic data, and for a protective order because
Khobragade presented no basis for the requested
discovery or sanctions”.

Page 10 of 40

The

plaintiff

presented

hundreds

and

thousands of pages of proof of evidences in
documents, medical reports, police reports and other
reports in the opening brief, reply brief and motions
and also in CM/ECF #152 Attachment for Motion for
Reconsideration; defendants totally evasive response
to all discovery request in Reply Briefs CM/ECF#393, page 120, pleadings for sanction, in the motions
submitted to the District Court and to the Ninth
Circuit Appeals Court. Even for pattern recognitions
i.e. the fact pattern speaks boldly and loudly without
a reason of doubt, that the defendant is guilty and
must be imposed with sanction on the defendant
Covidien LP, now Medtronic LP, with certainty.
District Court Judge Hayes ruled the final
judgment, against plaintiff, saying plaintiff does not
have evidence. However, see plaintiffs CM/ECF #152

Page 11 of 40

has 393 pages (attached in opening brief Exhibit 22
also), overwhelmingly filled with evidences, that will
prove the case, and even more evidences in opening
briefs and reply briefs, in plaintiffs favor.
JURISDICTION
The judgment of the Ninth Circuit, Court of
Appeals was entered on September 8, 2020. The
Petition for rehearing en banc was denied on
December 8, 2020. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(l).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
• United States Constitution Article VI, Clause 2.
Supremacy Clause of the Constitution of the
United States provides:
“This Constitution, and the laws of the
United States which shall be made in

Page 12 of 40

pursuance thereof; and all treaties made,
or which shall be made, under the
authority of the United States, shall be the
supreme law of the land; and the judges in
every state shall be bound thereby,
anything in the Constitution or laws of any
State to the contrary notwithstanding.”
• United States Constitution, Bill Of Rights
Amendment IV
“Protects citizens from unreasonable search and
seizure. The government may not conduct any
searches without a warrant and such warrants
must be issued by a judge and based on a
probable cause”
• United States

Constitution,

Bill of Rights

Amendment V
“Nor shall be compelled in any criminal case to be
a witness against himself, nor be deprived of life,
liberty, or property, without due process of law!

Page 13 of 40

nor shall private property be taken for public use,
without just compensation.”
• United States

Constitution,

Bill of Rights

Amendment VII
“provides that civil cases preserve the right to
trial by jury”
• United States

Constitution,

Bill of Rights

Amendment VIII
“Prohibits ...cruel and unusual punishments”
• United States

Constitution,

Bill of Rights

Amendment XTV
“All persons born or naturalized in the
United States, and subject to the
jurisdiction thereof, are citizens of the
United States and of the State wherein
they reside. No State shall make or enforce
any law which shall abridge the privileges
or immunities of citizens of the United
States! nor shall any State deprive any
person of life, liberty, or property, without
due process of law! nor deny to any person

Page 14 of 40

within its jurisdiction the equal protection
of the laws.”
STATEMENT OF THE CASES
The defendant Covidien LP, now Medtronic LP
lured, lied, cheated and stole while hiding it, not only
to and from the USCIS, DOL etc, Government of the
United States of America, but also to and from the
Plaintiff and not only that but using the Plaintiff to
fill their own pockets and or their employees pocket
with plaintiffs money, which in turn made more
money for the defendant, while forcing plaintiff to
work very hard, illegally, out of the country, stressed,
exhausted and depleting plaintiffs cash, and even
planned to chop plaintiffs salary, furthermore in
half, as shown with proof of evidences, in the Index
in the Exhibits 61 of Reply Brief CM/ECF 39 and
Exhibit 22 of Opening Brief CM/ECF 11 to the Ninth
Circuit Court and in the Exhibits of Motion for

Page 15 of 40

Reconsideration, CM/ECF # 152 to the United States
District Court of Southern California, (see, Charts in
APPENDIX C) Even for pattern recognitions i.e. the
fact pattern, speaks boldly and loudly, without a
reason of doubt, the defendant is guilty of all the
allegations and Supreme Court of the United States,
must enforce and imposed a sanction immediately on
the defendant. And along with inductive and
deductive reasoning for logic, the defendant must be
sanction, and this case must be reversed and
remanded to the United States District Court of
Southern

California,

for trials.

The

Southern

California District Court failed to acknowledge, the
abundance of evidences, moreover absolutely ignored
it. Upon retrospection, it was the dismissal of the
case, with abuse of discretion. Similarly, the Ninth
Circuit, not only absolutely ignored the proof of
evidences, but also disrespectingly disregarded the

Page 16 of 40

33 case laws of the Supreme Court of the United
States and other Circuit Courts and disregards the 7
scholarly books and or scholarly articles, quotations,
and Federal Rule of Civil Procedure Rule 56, as
listed in, FER Reply Brief Exhibit 62, CM/ECF 39.
REASONS FOR GRANTING THE PETITION
The Supreme Court should grant petition for a
writ of certiorari for the following reasons!
A. This Case that will resolve a clear conflicts or law:
Supreme Court, Rule 10, (c)
Governing Review on Certiorari,

Considerations

“a United States court of appeals has decided an
important question of federal law that has not
been, but should be, settled by this Court,” and
“has decided an important federal question in a
way that conflicts with relevant decisions of this
Court.”

Page 17 of 40

The lower courts issuing conflicting and
contradictory decisions, to all other U.S. Courts,
1. District Court, upon unopposed (MSJ) motion,
(defendant arms controlling me), contradicted, the
Fed. R. Civ. P. Rule 56, 2010 amendment
subdivision (e).
2. Similarly contradicting, the Forged evidence
rule submitted by the defendant to the federal
lower Court and the circuit court overlooked it or
disrespected it or disregarded the laws for it.
3. And the defendant Covidien LP repeated
obsessively

compulsively

violation

of

“Retaliation", One and only law available to a,
prior employee; with US Advanced Degree from
Syracuse University, A Top 50th Ranked US
University, which also is the Current Honorable
Mr. Presidents Joe Biden’s Alma Mater, however

Page 18 of 40

the Lower Court and Circuit Court overlooked it,
disrespected it and or disregarded the law for it.
4. The Circuit Court absolutely ignored the
precedence of 30 + case laws with 7 books and or
article listed in Reply Briefs, along with the
Federal Rules of Civil Procedure.
B. Because this case is important and unique:
C. Because in this case, in which the Lower Courts
disregards the Supreme Court:
Supreme Court, Rule 10, (a) Considerations
Governing Review on Certiorari,
“a United States court of appeals has
entered a decision in conflict with the
decision of another United States court
of appeals on the same important
matter; has decided an important
federal question in a way that conflicts
with a decision by a state court of last
resort; or has so far departed from the
accepted and usual course of judicial
proceedings, or sanctioned such a
departure by a lower court, as to call for
an exercise of this Court’s supervisory
power;”

Page 19 of 40

When the lower court blatantly ignores a previous
Supreme Court ruling, the Supreme Court may
decide to hear a case to correct or simply override
the lower court’s ruling. Most Importantly, A
Supreme

Court’s

stare

decisis ruling

was

disregarded and in addition a total of 5 different
additional Circuit Courts stare decisis ruling in
10 Different Circuit Court Cases were in addition
also disregarded, further more importantly Fed.
R. Civ. P. Rule 56, 2010 Amendment subdivision
(e) was also disregarded.

Furthermore, FER

Reply Brief Exhibit 62 shows 33 Case Laws, with
7 books and article quote). The existing stare
decisis, opinion of decision and judgments,
Especially by The Supreme Court of the United
States, along with Different other Circuit Court of
Appeals (preciously 2nd Circuit, 5th Circuit, 6th
Circuit, 11 Circuit, also lot of cases in their own

Page 20 of 40

9th Circuit), and Further more Federal Rule of
Civil Procedure i.e. I repeat, In Hierarchal Order,
The Supreme Court of The United States and 5
Different Circuit Court of Appeals, i.e. a Total of 6
Court of Appeals as listed below in this Petition
for a Writ of Certiorari, that substantially affects
a rule of national application in which there is an
overriding need for national uniformity.
D. Because this cases is interesting not just because
I am saying it nor because it’s my case. But
because it has many facts of such interesting
nature, that makes it a very interesting case.
Being human, the Supreme Court Justices
should sometimes choose to hear a case simply
because it involves their favorite area of law.
Not only that the defendant have broken the
one

and

only

law

repeatedly,

Page 21 of 40

repetitively,

redundantly, overwhelmingly, compulsively and
offensively, but also while doing so, they have
caused numerous irreparable losses of significant
proportion

and

overwhelmingly

irreparable
catastrophic

disastrous proportion to the

damages
&

of

financially

Plaintiff (that

plaintiff is left only with one suitcase, who once
had $100,000+ in savings in cash until FY2013
and the defendant stole everything and some
more), that as being human, the Supreme Court
Justices would ought to choose, to hear this case.
There is no word of “Citizen” in the First 10
amendments, Bill of Rights, in the United States
Constitution. It is often written as “The rights of the
people...”. The Bill of Rights protects everyone,
including the undocumented immigrants, to exercise

Page 22 of 40

free speech, religion, assembly, and to be free from
the unlawful government interference.
• The

defendant

violated

the

plaintiffs

4th

amendment Bill of Rights, US Constitution,
“protection

against

unreasonable

search

&

seizure” for stealing everything from plaintiff,
leaving only one suitcase.
•

The

defendant

violated

the

Plaintiffs

5th

amendment Bill of Rights, US Constitutions,
“protection against property seizure.”
•

The

defendant

violated

the

plaintiffs

7th

amendment, US Constitutions, Bill of Rights
“Rights to trial by Jury”.
• The

defendant

violated

the

plaintiffs

8th

amendment, US Constitution, Bill of Rights, for
the plaintiffs tremendous sufferings for 6+ years
“protection against..cruel & unusual punishment”

Page 23 of 40

•

The

defendant

violated

the

plaintiffs

14th

amendment, US Constitution, Bill of Rights,
protection against depriving any person of life,
liberty or property and equal protection of laws.
The reasons for granting the petition for a writ of
certiorari, is the monumental stare decisis cases
along with vital Federal Rule, in 10 different Circuit
Court Cases in 5 different Circuit Courts, that are
similar and or the same, to this case, are as listed
below and along with the Federal Rule, the Fed. R.
Civ. Pro. Rule 56 2010 amendment Subdivision (e),
respectively, are listed below with clarity & accuracy!
1. Because this is a Case with merits!
“Upon consideration of the appellant's
unopposed motion for summary reversal of
the district court's order granting the
motion of the appellee for summary
judgment, it is our conclusion that the
*1355 motion is meritorious. Accordingly,
the order of the district court granting

Page 24 of 40

summary judgment is vacated and this
case is remanded to the district court for
further proceedings consistent with
Alexander v. Garner-Denver Company, 415
U.S. 36, 94 S.Ct. 1011, 39 L.Ed.2d 147
(1974). Vacated and remanded.” Jones v.
Supreme Sugar Refinery, Div. of J. Aron &
Co., 493 F.2d 1354, (Mem)-1355 (5th Cir.
1974).
Therefore based on decision and judgment
quoted above, which is the case law, and becomes
a Supreme Court precedential mandatory case
law, the final judgment, must be reversed and
remanded and the defendant must be sanctioned.
2. Similarly or same, A Mandatory case law,
“Summary judgment granted in favor of
employer, in employment discrimination action,
would be vacated and remanded, where District
Court deemed the summary judgment motion
unopposed based on employee's attorney's
failure to timely file opposition papers, employee
requested that the District Court reconsider
decision to deem the motion unopposed, District
Court did not grant summary judgment until 10
deemed
was
months
after
motion
unopposed,...... and there was no showing that
employer would be prejudiced by additional
delay, in allowing new counsel to file opposition

Page 25 of 40

papers.” Godfrey v. New York City Transit
Auth., 258 F. App'x 353 (2d Cir. 2007).
Therefore based on decision and judgment
quoted above, is the case law, and becomes a
mandatory case law, and therefore the final
judgment, must be reversed and defendant, must
be sanctioned, see APPENDIX C.
3. Similarly or same, A Mandatory case law,
“Holding: The Court of Appeals held that
summary

judgment

granted

in

favor

of

employer, in employment discrimination action,
would be vacated and remanded.” Godfrey v.
New York City Transit Auth., 258 F. App'x 353
(2d Cir. 2007).
Therefore based on decision and judgment
quoted above, which is the case law, and becomes
a mandatory case law, the final judgment, must

Page 26 of 40

be reversed and remanded and defendant, must
be sanctioned, see APPENDIX C.
4. Similarly or same, A Mandatory case law,
“Thus, even if construed as a motion for
summary judgment, defendants' motion was
not sufficient to show that there was no
genuine issue of material fact and that
defendants were entitled to judgment as a
matter of law. See Celotex, 477 U.S. at 323.
Accordingly, the district court erred by
granting defendants' motion to dismiss/motion
for summary judgment and dismissing
Jacobs's complaint. See Henry, 983 F.2d at
949-50.4 *3 VACATED AND REMANDED.”
Jacobs v. Angelone, 995 F.2d 231 (9th Cir.
1993).
Therefore based on decision and judgment
quoted above, which is the case law, which
becomes a Supreme Court Precedence mandatory
case law, the final judgment, must be reversed
and remanded, defendant must be sanctioned.
5. Similarly or same, A Mandatory case law,
“Holdings^ The Court of Appeals,
Kravitch, Circuit Judge, held that: l.

Page 27 of 40

district court could not base entry of
summary judgment on mere fact that
motion was unopposed; and 2. genuine
issue of material fact, as to whether
............. , precluded entry of summary
judgment. Reversed and remanded.”
United States v. One Piece of Real
Prop. Located at 5800 SW 74th Ave.,
Miami, Fla., 363 F.3d 1099 (llth Cir.
2004).
Therefore based on decision and judgment
quoted above, which is the case law, and becomes
a mandatory case law, the final judgment, must
be reversed and remanded and defendant, must
be sanctioned, see APPENDIX C.
6. Similarly or same, A Mandatory case law,
“Holdings: The Court of Appeals held
that: l. review of arbitrator's legal
conclusions should be de novo under
Pension
Plan
Multi-Employer
Amendments Act (MPPAA), and 2.
district court could not base entry of
summary judgment in favor of pension
fund on its perception that the motion
was unopposed by employer, but,
rather, was required to consider the
merits of the motion. Vacated and
remanded.” Trustees of Cent Pension

Page 28 of 40

Fund of Int'l Union of Operating
Engineers & Participating Employers
v. Wolf Crane Serv., Inc., 374 F.3d
1035 (11th Cir. 2004).
Therefore based on decision and judgment
quoted above, which is the case law, and becomes
a mandatory case law, the final judgment, must
be reversed and remanded and defendant, must
be sanctioned, see APPENDIX C.
7. Similarly or same, A Mandatory case law,

.

Synopsis “In civil rights action, the
United States District Court for the
Eastern District of Michigan, Lawrence
P. Zatkoff, J., dismissed case based on
plaintiffs' failure to timely respond to
defendants'
summary
judgment
motions, and plaintiffs appealed. The
Court of Appeals, Gilman, Circuit
Judge, held that dismissal pursuant to
local rule was abuse of discretion,
absent specific finding of either bad
faith by plaintiffs or prejudice to
defendants as result of delay or notice
that
court
was
contemplating
dismissal. Reversed and remanded.”
Stough v. Mayville Cmty. Sch., 138
F.3d 612 (6th Cir. 1998).

Page 29 of 40

Therefore based on decision and judgment
quoted above, which is the case law, and becomes
mandatory case law, the final judgment, must be
reversed and remanded, defendant must be
sanctioned, see APPENDIX C.
8. Similarly or same, A Mandatory case law,
“Holdings: The Court of Appeals, Clifton, Circuit
Judge, held that: 1. passenger's failure to file an
opposition did not warrant granting prosecutor
summary judgment by default” Heinemann v.
Satterberg, 731 F.3d 914 (9th Cir. 2013).
Therefore based on decision and judgment
quoted above, which is the case law, and becomes
a mandatory case law, the final judgment, must
be reversed and remanded and defendant, must
be sanctioned, see APPENDIX C.

Page 30 of 40

9. Similarly or same, A Mandatory Case Law
The District Court did not even rule on the
plaintiffs last exp arte motion for

extension of

time, even till date, please see the Docket Report
for the Case 3:i6_cv00468‘WQH‘AGS, let alone,
let the plaintiff know when the due date is for the
opposition for the motion for summary judgment,
far from warning the plaintiff that if the
opposition is not file the case would be granted in
favor if the defendant. And surprisingly ruled the
Final Judgment in the guilty parties, i.e. in the
Defendants Favor.
“Given these circumstances, we vacate
the district court's grant of summary
judgment and remand the case in order
to allow the district court the
opportunity to consider Garcia's motion
for an extension of time in which to file
his opposition to the defendants' motion
for summary judgment. See Eldridge,
832 F.2d at 1136-38. Vacated and
Remanded.” Garcia v. Knapp, 936 F.2d
577 (9th Cir. 1991).

Page 31 of 40

Therefore based on decision and judgment
quoted above, which is the case law, and becomes
a mandatory case law, the final judgment, must
be reversed and remanded and defendant, must
be sanctioned, see APPENDIX C.
10. Similarly or same, A Mandatory case law,
“district court's failure to give pro se
state inmate notice of right to file
counter-affidavits or other responsive
evidentiary materials on motion for
summary judgment and be alerted to
the fact that the failure to do so might
result in entry of summary judgment
against inmate was harmful error.
Vacated and remanded.” Smith v. Haan,
199 F. App'x 594 (9th Cir. 2006).
Therefore based on decision and judgment
quoted above, which is the case law, and becomes
a mandatory case law, the final judgment, must
be reversed and remanded and defendant must
be, sanctioned, see APPENDIX C.

Page 32 of 40

11.More Importantly, Is Fed. R. Civ. P. Rule 56, 2010
Amendment Subdivision (e) a joke?
Fed. R. Civ. P. Rule 56, 2010 Amendment
Subdivision (e): "As explained below, summary
judgment cannot be granted by default even if
there is a complete failure to respond to the
motion, much less when an attempted response
fails to comply with Rule 56(c) requirements."
This

proceeding

involves

a

question

of

exceptional importance. Was the Fed. R. Civ. P.
(FRCP) Rule 56, amendment a pretention, a fake
or a phony amendment. Why was this particular
amendment added in the first place? And why is
this Fed. R. Civ. P. Rule 56, 2010 amendment
subdivision (e) ignored and thrown out of the
FRCP Rule 56 rulebook, when every other rule in
FRCP Rule 56 rulebook was followed, moreover

Page 33 of 40

used to make final judgment on this entire case,
without Trials? Did District Circuit Court Err?
12. White motor Co. v. U.S., 372 U.S. 253, 259(1963)
(summary judgment was improper when it
required judicial finding of fact regarding the
issue of motive & intent). Therefore based on
decision and judgment quoted above, which is the
case law, and becomes a mandatory case law, the
final judgment, must be reversed and remanded
and defendant must be, sanctioned.
13. Lastly, the most important penultimate Supreme
Court Case law, Adickes v. S.H.Kress & Co., 398
US. 144, 157, 90 S.Ct 1598(1970) (Summary
Judgment was improper because “respondent
here did not carry its burden because of its failure
to foreclose the possibility that” there was a
different version of the circumstances at issue).
The defendant did not carry, its burden at all to

Page 34 of 40

prove the case and or also to foreclose any
possibility and the District Court and Circuit
Court

should

have

performed

fact

finding

regarding motives & intents. Therefore based on
decision and judgment quoted above, which is the
case law, and becomes a mandatory case law, the
final judgment, must be reversed and remanded
and defendant must be, sanctioned.
14. Lastly Most Importantly Supreme Court Case
Law, Medlmmune, Inc. v. Genentech, Inc., 549
U.S. 118, 127 S.Ct. 764, 166 L. Ed. 2d 604 (2007)
“Holdings^ The Supreme Court, Justice Scalia,
held that

Supreme Court would not address

whether action was subject to dismissal on
discretionary grounds. Reversed and Remanded”
Upon retrospection, the defendant was looking
for a quick dismissal, to hide their very dirty and

Page 35 of 40

very bad act against the plaintiff, by denying all
motions

from

plaintiff,

except

time

extension

motions, by not letting the plaintiff submit the
evidences for the summary judgment opposition...
etc and what was planned, is what the defendant
achieved, a quick dismissal of the case. However as
per Justice

Scalia,

dismissal on

discretionary

grounds is not addressable and therefore reversed
and remanded, the case listed above for further
proceedings. Therefore similarly, because this case
being similar to the case law listed above, therefore
with Supreme Courts precedence, this case should be
reversed and remanded and defendant must be
sanctioned,

because

district

court,

lacks

the

discretionary grounds for dismissal of the case, on a
Summary Judgment Motion.

Page 36 of 40

Furthermore in the Reply Brief the plaintiff
has enumerated and elaborated with a total of 30 +
mandatory case law, in Supreme Court and various
Circuit Court cases, overwhelmingly pleading, the
final order must be Reversed and Remanded.
This petition for a writ of certiorari is
presented to the Supreme Court of the United States,
only when some gross injustice was being done by
other party Named Covidien LP, now Medtronic LP
and their far reaching authorities, see APPENDIX C.
“Writ, And as they came to be regarded as among the
most

important

judicial

remedies.”

“It

must.

however, be remembered, when we speak of judicial
remedies or of judicial bodies in these times.” 3
Important point;, this case has been going on,
since June 2009, officially since June 2015 and in the
Courts since Feb 2016, and still to date i.e. more

Page 37 of 40

than 11 years have gone by, and there has been
absolutely no remedy at all, i.e. no remedy at all
since 11+ years, and furthermore with defendant
even politicizing, to avoid paying. And due to the bad
faith defendant, lulling the plaintiff and eating away
statues of limitations ... etc, see APPENDIX C and
making the

plaintiff suffer

(140+),

for their

insecurity of “loss aversion”. It was very difficult for
the single plaintiff, for even, to have had approach
the Court, with these few statues of limitations, left
available, that were, later identified to be up to 44
claims, shown in FER Reply Brief Exhibit 67. Think
about the damages that would have to be listed, that
were actually incurred, yet kept aside, because of
these 44 lost causes of action, because of these 44
claim’s time bared, statutes of limitations. And more
importantly the staggering amount of damages that
the defendant has still, stacked deep and miles high,

Page 38 of 40

due to their civil and criminal violating acts.' and still
continuing. The Supreme Court of the United States,
would be the only one, to do the justice and provide
legal remedy for these horrific and torturous acts of
the defendant Covidien LP, now Medtronic LP.
“It was the court of King's Bench that possessed the
power to issue the extraordinary legal remedies or
writs of which the certiorari was one”.3
SANCTIONS ON THE DEFENDANT
Rambo Lawyering
continued

please see attached APPENDIX C.

In summary, The Ninth Circuit err in conflict,
contradicting Supreme Court, and other circuit
courts

decisions,

Federal

Rule

of

Appellate

Procedure. Similarly, the Southern District Court of
California err, not following what other Federal
District Courts, in all the 50 states follow, i.e. the

Page 39 of 40

Federal Rule of Civil procedure, the precedence. And
further more err in not even acknowledge hundreds
and thousands of documents, as proof of evidences.
CONCLUSION
For the reasons stated above, The Supreme Court of
the United States should grant the petition for a writ
of certiorari.
Respectfully Submitted

MR. ASHWIN K KHOBRAGADE,
Address:

4764

Quadres

ct,

Fremont, CA 94538
YouBeLoyal2AshwinK@gmail.com
Phone Number: (646) 877 3878
Petitioner Plaintiff
Date: May 7, 2021

Page 40 of 40

